No. _____

In the

Supreme Court of the United States
__________________
PDX NORTH, INC.,
Petitioner,
v.
ROBERT ASARO-ANGELO, IN HIS OFFICIAL CAPACITY AS
THE COMMISSIONER OF THE DEPARTMENT OF LABOR
AND WORKFORCE DEVELOPMENT OF THE STATE OF
NEW JERSEY,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Third Circuit

__________________
PETITION FOR WRIT OF CERTIORARI
__________________
JACK L. KOLPEN, ESQ.
IAN D. MEKLINSKY, ESQ.
CORINNE MCCANN TRAINOR, ESQ.
Counsel of Record
ALLISON L. HOLLOWS, ESQ.
MICHAEL W. SABO, ESQ.
FOX ROTHSCHILD LLP
Princeton Pike Corporate Center
997 Lenox Drive
Lawrenceville, NJ 08648
Tel: (609) 896.3600
Fax: (609) 896.1469
ctrainor@foxrothschild.com
Counsel for Petitioner
March 19, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED FOR REVIEW
I. Federal courts have a “virtually unflagging
obligation” to hear and decide cases within their
jurisdiction. In Younger v. Harris, 401 U.S. 37 (1971),
this Court recognized a narrow exception to that duty.
Under Younger, a federal court should abstain when
there is a parallel, pending state criminal proceeding.
This Court has extended Younger, permitting courts to
abstain when there are pending state proceedings that
are civil, but “only [in] exceptional circumstances”
when the action is “akin to a criminal prosecution.”
Sprint Commc’ns, Inc. v. Jacobs, 571 U.S. 69, 77–78, 82
(2013) (quoting New Orleans Pub. Serv., Inc. v. Council
of City of New Orleans (NOPSI), 491 U.S. 350, 368
(1989)). Here, the New Jersey Department of Labor
(“NJDOL”) audited Petitioner regarding unemployment
insurance contributions, with no pending quasicriminal proceedings, and Petitioner requested a
hearing with the state administrative courts. When
Petitioner also filed a declaratory judgment action in
federal court challenging the constitutionality of the
definition of “employment,” the district court below and
the Third Circuit on appeal declined to exercise
jurisdiction, finding Younger abstention appropriate.
The question presented is: Whether Younger abstention
is applicable and the district court may decline
jurisdiction when there is a state administrative
proceeding brought under a civil statute, where only
civil remedies are sought and where no criminal or
quasi-criminal provisions or remedies are involved.

ii
PARTIES TO THE PROCEEDINGS
Petitioner PDX North, Inc. was the appellant in the
court below. Respondent Robert Asaro-Angleo, in his
official capacity as the Commissioner of the
Department of Labor and Workforce Development of
the State of New Jersey, was the appellee. SLS
Delivery Services, Inc. was an intervenor in the district
court and appellant in the consolidated appeals.
RULE 29.6 STATEMENT
Petitioner is a non-governmental corporation that
does not have a parent corporation, nor is there any
publicly held corporation that owns 10% or more of
Petitioner’s stock.
STATEMENT OF RELATED PROCEEDINGS
United States District Court for the District of New
Jersey:
PDX North, Inc. v. Robert Asaro-Angelo, in his
capacity as Commissioner of the New Jersey
Department of Labor and Workforce Development, No.
3:15-cv-07011-BRM-TJB (July 29, 2019).
New Jersey Office of Administrative Law:
PDX North Inc. v. New Jersey Department of Labor
and Workforce Development, OAL Docket No. LID
02451-2015.

iii
TABLE OF CONTENTS
QUESTION PRESENTED FOR REVIEW . . . . . . . . i
PARTIES TO THE PROCEEDINGS. . . . . . . . . . . . . ii
RULE 29.6 STATEMENT . . . . . . . . . . . . . . . . . . . . . ii
STATEMENT OF RELATED PROCEEDINGS . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . vi
PETITION FOR A WRIT OF CERTIORARI . . . . . . 1
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 2
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
STATUTORY PROVISIONS INVOLVED . . . . . . . . 3
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 3
A. The NJDOL Audit Process . . . . . . . . . . . . 3
B. PDX’s Business and Audits by the
NJDOL . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
C. PDX Files This Suit . . . . . . . . . . . . . . . . . . 5
D. The District Court Declined to Hear the
Case, Citing Younger Abstention . . . . . . . 7
REASONS FOR GRANTING THE PETITION . . . . 7
I.

The Panel’s Opinion and Analysis Expand
the Application of Younger Abstention
Beyond the Limits Defined in Sprint . . . . . . . 7

iv
A. The Panel Impermissibly Extends
Younger Abstention to Civil Actions with
a Quasi-Criminal Analog . . . . . . . . . . . . . 10
1. N.J.S.A. 43:21-14 is a civil statute that
provides civil remedies . . . . . . . . . . . . 11
2. N.J.S.A. 43:21-16(e) is a civil statute
that has been held to afford quasicriminal remedies . . . . . . . . . . . . . . . . 13
B. The Panel Erred in Finding That NJDOL
Audits Are Initiated to Sanction
Employers. . . . . . . . . . . . . . . . . . . . . . . . . 14
II.

The Circuits are Divided Over the Question
Presented . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
A. Aside from the Panel’s Decision Below,
No Other Circuits Apply Younger
Abstention to a Purely Civil Proceeding
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
B. The Panel is the Only Court to Abstain
Under Younger By Looking to a
Hypothetical Criminal Proceeding Not At
Issue In the Case . . . . . . . . . . . . . . . . . . . 20

III.

The Panel’s Opinion and Analysis Will
Significantly Hinder a Business’s Ability to
Challenge Unconstitutional Regulations . . . 23

IV.

This Case Provides an Ideal Vehicle to Rein
in the Third Circuit’s Expansive QuasiCriminal Analog Analysis and Reaffirm
Younger’s Limited Application . . . . . . . . . . . 24

v
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
APPENDIX
Appendix A Opinion of the Court in the United
States Court of Appeals for the Third
Circuit
(October 22, 2020) . . . . . . . . . . . . . App. 1
Appendix B Judgment in the United States Court
of Appeals for the Third Circuit
(October 22, 2020) . . . . . . . . . . . . App. 27
Appendix C Opinion in the United States District
Court for the District of New Jersey
(July 29, 2019) . . . . . . . . . . . . . . App. 29
Appendix D Order in the United States District
Court for the District of New Jersey
(July 29, 2019) . . . . . . . . . . . . . . App. 51
Appendix E Statutory Provisions Involved . . . App. 53

vi
TABLE OF AUTHORITIES
CASES
ACRA Turf Club, LLC v. Zanzuccki,
748 F.3d 127 (3d Cir. 2014) . . . . . . . . . . . . 8, 9, 13
Bristol-Myers Squibb Co. v. Connors,
979 F.3d 732 (9th Cir. 2020). . . . . . . . . . 20, 21, 22
Colo. River Water Conservation Dist. v. United
States, 424 U.S. 800 (1976). . . . . . . . . . . . . . . . . . 8
Dan’s City Used Cars, Inc. v. Pelkey,
569 U.S. 251 (2013). . . . . . . . . . . . . . . . . . . . . . 5, 6
Exxon Corp. v. Wis. Dep’t of Revenue,
447 U.S. 207 (1980). . . . . . . . . . . . . . . . . . . . . . . 12
Hargrove v. Sleepy’s, LLC,
220 N.J. 289 (2015) . . . . . . . . . . . . . . . . . . . . . . . . 6
Huffman v. Pursue, Ltd.,
420 U.S. 592 (1975). . . . . . . . . . . . . . . . . . . passim
Johnson v. United States,
559 U.S. 133 (2010). . . . . . . . . . . . . . . . . . . . . . . 12
Matter of Corbo,
117 B.R. 109 (Bankr. D.N.J. 1990). . . . . . . . . 4, 13
Minnesota ex rel. Pearson v. Prob. Ct.,
309 U.S. 270 (1940). . . . . . . . . . . . . . . . . . . . . . . 12
Minnesota Living Assistance, Inc. v. Peterson,
899 F.3d 548 (8th Cir. 2018). . . . 18, 19, 20, 21, 22
Mulholland v. Marion Cnty. Election Bd.,
746 F.3d 811 (7th Cir. 2014). . . . . . . . . . 19, 21, 22

vii
New Orleans Pub. Serv., Inc. v. Council of City of
New Orleans (NOPSI), 491 U.S. 350 (1989) . . i, 1
New York v. Ferber,
458 U.S. 747 (1982). . . . . . . . . . . . . . . . . . . . . . . 12
PDX North, Inc. v. Comm’r of N.J. Dep’t of Lab.
and Workforce Dev.,
978 F.3d 871 (3d Cir. 2020) . . . . . . . . . . 15, 20, 21
Rynearson v. Ferguson,
903 F.3d 920 (9th Cir. 2018). . . . . . . 18, 20, 21, 22
Sprint Commc’ns, Inc. v. Jacobs,
571 U.S. 69 (2013). . . . . . . . . . . . . . . . . . . . passim
State v. Drake,
79 N.J. Super. 458 (App. Div. 1963). . . . . 4, 11, 12
State v. Paladino,
203 N.J. Super. 537 (App. Div. 1985). . . . . . . . . 16
State v. Witrak,
194 N.J. Super. 526 (App. Div. 1984). . . . . passim
Trainor v. Hernandez,
431 U.S. 434 (1977). . . . . . . . . . . . . . . 9, 10, 13, 19
Wainwright v. Stone,
414 U.S. 21 (1973). . . . . . . . . . . . . . . . . . . . . . . . 12
Younger v. Harris,
401 U.S. 37 (1971). . . . . . . . . . . . . . . . . . . . passim
STATUTES
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 3
N.J.S.A. 43:21-14 . . . . . . . . . . . . . . . . . . . . . . . passim

viii
N.J.S.A. 43:21-16 . . . . . . . . . . . . . . . . . . . . . . . passim
N.J.A.C. 12:16-22.2(a) . . . . . . . . . . . . . . . . . . . . . . . . 5
N.J.S.A. 43:21-19(i)(6) . . . . . . . . . . . . . . . . . . . . . . 5, 6
N.J.S.A. 43:21-19(7)(X) . . . . . . . . . . . . . . . . . . . 5, 6, 7
OTHER AUTHORITIES
N.J. Dep’t of Lab. and Workforce Dev., Emp.
Handbook, Audit Process, available at
https://www.nj.gov/labor/handbook/chap1/
chap1sec7AuditProcess.html . . . . . . . . . . . . . 3, 15

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner PDX North, Inc. (“PDX”) petitions for a
writ of certiorari to review the Judgment of the United
States Court of Appeals for the Third Circuit in this
case.
INTRODUCTION
The abstention doctrine under Younger v. Harris,
401 U.S. 37 (1971), excuses the federal courts from
their virtually unflagging responsibility to hear and
decide a case. Younger only permits federal courts to
abstain in a narrow class of cases including: (1) ongoing
state criminal prosecutions; (2) certain “civil
enforcement proceedings” quasi-criminal in nature; and
(3) pending “civil proceedings involving certain orders
. . . uniquely in furtherance of the state courts’ ability
to perform their judicial functions.” New Orleans Pub.
Serv., Inc. v. Council of City of New Orleans (NOPSI),
491 U.S. 350, 368 (1989). Relevant here, this Court in
Sprint Communications, Inc. v. Jacobs reaffirmed that
Younger abstention only applies in “exceptional
circumstances” to state civil enforcement proceedings
“akin to a criminal prosecution” in “important
respects.” 571 U.S. 69, 77–78, 82 (2013) (quoting
Huffman v. Pursue, Ltd., 420 U.S. 592, 604 (1975)).
Despite this unequivocal limit to the application of
Younger, the Third Circuit panel (the “Panel”) affirmed
the district court’s dismissal declining jurisdiction.
Citing Younger, the Panel concluded that the pending
administrative proceeding was a “civil enforcement
proceeding.” It thus dismissed the federal action,
reasoning that in the same statutory chapter as the

2
civil statute under which the Respondent initiated the
audit and assessment against PDX, N.J.S.A. 43:21-14,
there is another cause of action available to the NJDOL
with a quasi-criminal remedy, N.J.S.A. 43:21-16(e). The
Panel erred because although New Jersey courts have
held that N.J.S.A. 43:21-16(e) is a quasi-criminal
provision, the NJDOL has never asserted that PDX
intended to evade or defraud, a requisite element under
section 16(e). Nor did the NJDOL initiate an
administrative proceeding pursuant to that statutory
section. Thus, the Panel’s error is plain in that it
impermissibly extended the boundaries of Younger
abstention to a purely civil action.
The Panel’s reasoning contravenes Sprint’s
requirement that Younger cannot be divorced from the
quasi-criminal context lest Younger be extended to
“virtually all parallel state and federal proceedings.”
Sprint, 571 U.S. at 81. The Panel’s approach also
conflicts with this Court’s decision in Sprint and cases
from the Seventh, Eighth and Ninth Circuits that
require the underlying state civil proceeding itself to be
quasi-criminal in nature, such that it is a “civil
enforcement proceeding.” This case thus presents a
critical question as to the proper method of
determining whether a state proceeding is a “civil
enforcement proceeding” to which abstention under
Younger may be ordered. This Court should accept
certiorari and reverse.
OPINIONS BELOW
The opinion of the Third Circuit is reported at 978
F.3d 871 (Mem.) and reproduced in the appendix hereto
(“App.”) at App. 1. The opinion of the United States

3
District Court for the District of New Jersey (App. 29)
is unreported but is available at 2019 WL 3416836.
JURISDICTION
The Third Circuit entered judgment on October 22,
2020. (App. 27). Under this Court’s March 19, 2020
order, the time for filing a petition for a writ of
certiorari was extended to March 21, 2021. The
jurisdiction of this Court is invoked under 28 U.S.C.
§ 1254(1).
STATUTORY PROVISIONS INVOLVED
N.J.S.A. 43:21-14 (App. 53) and N.J.S.A. 43:21-16(e)
(App. 63).
STATEMENT OF THE CASE
A. The NJDOL Audit Process
The NJDOL audits employers as part of its
comprehensive field audit program required by the
United States Department of Labor. See N.J. Dep’t of
Lab. and Workforce Dev., Emp. Handbook, Audit
Process, available at https://www.nj.gov/labor/
handbook/chap1/chap1sec7AuditProcess.html. Audits
may be initiated randomly, resulting in audits of
thousands of employers per year.
The NJDOL may pursue civil remedies under one
statute, if an audit reveals that an employer has not
kept up with unemployment insurance contributions.
Additionally, the NJDOL may initiate a quasi-criminal
action under a separate statute if the facts show an
intent to evade or defraud the NJDOL. A “mere failure
to pay the appropriate contributions,” standing alone,

4
triggers civil liability under N.J.S.A. 43:21-14. State v.
Witrak, 194 N.J. Super. 526, 531 (App. Div. 1984). To
remedy that deficiency, “the State may (1) charge
interest on the deficiency, (2) make a demand for
payment and (3) obtain a judgment upon issuing a
certificate.” Id. at 530. A different section in the same
statutory chapter can expose an employer to potential
quasi-criminal liability when the NJDOL avers that
the employer failed to stay current on its contributions
and that it did so with the intent to evade or defraud
the NJDOL. See N.J.S.A. 43:21-16. Section 16(e), in
particular, empowers the Commissioner of Labor
(Respondent here) to initiate a quasi-criminal
proceeding. Id. See also Matter of Corbo, 117 B.R. 109,
111 (Bankr. D.N.J. 1990) (identifying actions under
subsection N.J.S.A. 43:21-16(e) as quasi-criminal);
Witrak, 194 N.J. Super. at 529–32; but see State v.
Drake, 79 N.J. Super. 458, 461 (App. Div. 1963)
(explaining that under N.J.S.A. 43:21-16(a) “an action
for a penalty is neither criminal nor quasi-criminal in
nature, but civil”).
B. PDX’s Business and Audits by the NJDOL
PDX facilitates and brokers transportation and
delivery services of wholesale automotive parts to
dealers and third party suppliers in several states,
including New Jersey. To meet customer demand, PDX
contracts with entrepreneurial individuals (“Drivers”)
on an “as-needed,” “on-demand” basis to provide
delivery services. Drivers pick up and deliver
automotive parts and tires from automotive part
suppliers and regional warehouses and deliver them to

5
repair shops, retailers, and automotive dealers that
request them (the “Customers”).
Since 2006, the NJDOL audited PDX multiple times
to determine if it properly categorized its drivers as
independent contractors, each time concluding that
PDX did not prove that all Drivers were independent
contractors. For each of the audits, the NJDOL
calculated contributions, interest, and penalties that
the auditor believed PDX owes, pursuant to N.J.S.A.
43:21-14. No action was ever filed against PDX
pursuant to N.J.S.A. 43:21-16(e). Following the audits,
the Commissioner issued a written notice of
determination and PDX submitted a Request for
Hearing, contesting that determination, which initiated
the administrative appeal. See N.J.A.C. 12:16-22.2(a).
The administrative appeals have been stayed by the
administrative law judge, pending this federal
litigation.
C. PDX Files This Suit
On September 22, 2015, PDX commenced this
action, asserting express and implied preemption, to
declare void the definition of “employment” and the
applicable exception for certain motor carriers, see
N.J.S.A. 43:21-19(i)(6) and (7)(X) (together, the
“Statute”), and enjoin enforcement and use of these
constructs. The Federal Aviation Administration
Authorization Act of 1994 (“FAAAA”), and its
predecessor the Motor Carrier Act of 1980, deregulated
the trucking industry and expressly preempted state
trucking regulations. Dan’s City Used Cars, Inc. v.
Pelkey, 569 U.S. 251, 256 (2013). PDX alleges that it is
entitled to relief because Congress enacted the FAAAA

6
in an effort to ensure that “transportation rates, routes,
and service reflect ‘maximum reliance on competitive
market forces’ to stimulate ‘efficiency, innovation, and
low prices’ as well as variety and quality.” Congress
included broad preemption language in the FAAAA to
prevent states from impermissibly restricting motor
carriers engaged in interstate commerce. Id. at 263.
States are prohibited from enacting or enforcing any
law, regulation, or other provision “related to a price,
route, or service” of a motor carrier. Id. at 256. PDX
alleges that New Jersey law substantially and
adversely affects PDX’s prices, routes, and/or services
and is preempted by the FAAAA.
The Statute provides that an individual, who
performs services in New Jersey for payment, is
presumed to be an employee unless the three
conditions of the so-called “ABC Test” are met: (A) the
individual is “free from control or direction over the
performance of such service”; (B) the “service is either
outside the usual course of the business for which such
service is performed, or that such service is performed
outside of all the places of business” of the company;
and (C) the “individual is customarily engaged in an
independently established trade, occupation, profession
or business.” N.J.S.A. 43:21-19(i)(6); Hargrove v.
Sleepy’s, LLC, 220 N.J. 289, 305 (2015). The ABC Test
is a stricter standard than that used under federal law
to differentiate between employees and independent
contractors, and “may cast a wider net” than the
federal standard as well. Id. at 313–14.
N.J.S.A. 43:21-19(7)(X) exempts certain motor
carriers from having to overcome the Statute’s

7
presumption that its drivers are employees. Those
motor carriers that are not exempt under N.J.S.A.
43:21-19(7)(X) must overcome the Statute’s
employment presumption. Thus, the Statute excuses
some, but not all motor carriers from overcoming the
presumption that drivers are employees in violation of
the FAAAA.
D. The District Court Declined to Hear the
Case, Citing Younger Abstention
After several years of litigation, expert reports and
discovery, the district court abstained from hearing
PDX’s challenge to the Statute on the basis of Younger,
classifying the pending NJDOL audit and appeal as a
quasi-criminal civil enforcement proceeding.
On consolidated appeals, the Third Circuit affirmed.
REASONS FOR GRANTING THE PETITION
I.

The Panel’s Opinion and Analysis Expand
the Application of Younger Abstention
Beyond the Limits Defined in Sprint.

Certiorari is appropriate because the Panel’s
opinion and analysis is contrary to the limits on
Younger abstention announced by this Court in Sprint
in so far as the Panel: (1) concluded that the civil action
was a “civil enforcement proceeding” and rejected the
classification of the statute at issue as civil by relying
on a different civil statute rather than a parallel
criminal statute; and (2) concluded that the
administrative proceeding was necessarily initiated to
sanction PDX because penalties were issued, despite
state law’s classification of the penalties as civil. The

8
Panel’s conclusion is at odds with the conclusions of the
other courts of appeal both in its reliance on a civil
statute held to be quasi-criminal in nature, rather than
a parallel criminal statute, and its consideration of the
possibility of future criminal proceedings.
Federal courts’ “‘obligation’ to hear and decide a
case is ‘virtually unflagging.’” Sprint, 571 U.S. at 77
(quoting Colo. River Water Conservation Dist. v. United
States, 424 U.S. 800, 817 (1976)). There are limited
exceptions, however, in which a court may abstain from
hearing a case otherwise within its jurisdiction. Under
Younger v. Harris, a federal court may abstain if there
is a related state proceeding that is a: (1) criminal
prosecution; (2) civil enforcement proceeding that is
quasi-criminal in nature; or (3) civil proceeding
specifically in furtherance of the state courts’ judicial
functions. Sprint, 571 U.S. at 78–79. The relevant
category here, civil enforcement proceedings, are state
proceedings “‘akin to a criminal prosecution’ in
‘important respects.’” Id. at 79. (quoting Huffman, 420
U.S. at 604).
To determine whether an action is a civil
enforcement proceeding quasi-criminal in nature,
courts consider whether: “(1) the action was
commenced by the State in its sovereign capacity,
(2) the proceeding was initiated to sanction the federal
plaintiff for some wrongful act, and (3) there are other
similarities to criminal actions, such as a preliminary
investigation that culminated with the filing of formal
charges.” ACRA Turf Club, LLC v. Zanzuccki, 748 F.3d
127, 138 (3d Cir. 2014) (citing Sprint, 571 U.S. at
78–80). In determining whether a pending proceeding

9
is a quasi-criminal civil enforcement proceeding, courts
may consider whether there is a parallel criminal
statute under which the State could have vindicated its
interests. See Trainor v. Hernandez, 431 U.S. 434, 444
(1977); Huffman, 420 U.S. at 604.1
Contrary to Younger and its progeny, the Panel
never references a parallel criminal statute or criminal
code provision. The Panel erroneously held that
N.J.S.A. 43:21-16(e) is the criminal analog to the
relevant civil statute, N.J.S.A. 43:21-14(a), pursuant to
which the Commissioner initiated the audits. PDX
disputes that N.J.S.A. 43:21-16(e) is a parallel statute
to N.J.S.A. 43:21-14 under which the state could have
vindicated its interests because N.J.S.A. 43:21-16(e)
requires a showing of intent to evade or defraud and
further requires the Commissioner to initiate suit in
the Superior Court of New Jersey or municipal court in
a county of New Jersey. There is no such proceeding
here, nor has the Commissioner indicated the existence
of any facts in the record, which could even support
such a claim. Setting aside whether N.J.S.A. 43:21-14
and N.J.S.A. 43:21-16(e) are parallel, the error
committed by the Panel is plain because New Jersey
courts have determined that N.J.S.A. 43:21-16(e) is
merely a quasi-criminal statute, and not a criminal
statute. See Witrak, 194 N.J. Super. at 529–32. As
such, it cannot be a “parallel criminal statute” and
thus, it cannot justify a conclusion that Younger
applies. ACRA Turf Club, LLC, 748 F.3d at 138 (citing

1

This Court has not reexamined the parallel criminal statute
analysis relied on in Trainor, 431 U.S. at 444, and Huffman, 420
U.S. at 604, post-Sprint.

10
Huffman, 420 U.S. at 604; Trainor, 431 U.S. at 444). If
this Court permits the precedential decision below to
stand, courts in the Third Circuit may abstain from
exercising jurisdiction if the pending action is purely
civil and brought pursuant to a statute that happens to
be located within the same statutory framework as a
quasi-criminal provision.
Permitting a federal court to abstain under the
circumstances here would flip this Court’s precedent on
its head. Younger’s narrow and exceptional
applicability would become the norm if a statutory
scheme includes a quasi-criminal provision, even if not
at issue in the pending state case. This Court has
explained, however, that abstention is only appropriate
when the state proceeding “currently pending” is “the
type of ‘exceptional’ civil enforcement proceeding from
which Younger would compel abstention.” ACRA Turf
Club, LLC, 748 F.3d at 138 (citing Sprint, 571 U.S. at
73); see id. (holding that the “state proceeding at issue
in this appeal does not bear any of the hallmarks that
Sprint and its predecessors identify with quasicriminal actions.”).
A. The Panel Impermissibly Extends
Younger Abstention to Civil Actions
with a Quasi-Criminal Analog.
The Panel’s reasoning expands Younger beyond the
contours of Sprint by permitting abstention where
there is a quasi-criminal statute within the same civil
statutory scheme. The Panel further erred by invoking
a quasi-criminal section of the statute that would
require the NJDOL to prove an additional element of
intent to evade or defraud, which was not alleged by

11
the NJDOL in the underlying proceeding. In finding
that abstention under Younger was appropriate, the
Panel held that PDX’s administrative action before the
NJDOL for the classification of its workers is a “civil
enforcement proceeding,” and therefore, is more akin to
a criminal action than a civil case. In making that
determination, the Panel reasoned that N.J.S.A. 43:2116(e) was a criminal analog to N.J.S.A. 43:21-14, the
civil statute under which the NJDOL audit and
assessment proceeded. N.J.S.A. 43:21-16(e), however,
is not a criminal statute, but rather a quasi-criminal
civil statute, a status that has been explicitly
announced by New Jersey courts. Witrak, 194 N.J.
Super. at 529–32.
1. N.J.S.A. 43:21-14 is a civil statute that
provides civil remedies.
Overall, “the clear intent of [the Unemployment
Compensation law (“UCL”)] is to provide a civil
remedy.” Drake, 79 N.J. Super. at 461. The pending
New Jersey administrative action at issue is proceeding
pursuant to N.J.S.A. 43:21-14(a) and (b), where the
Commissioner does not need to show that the employer
had specific intent to evade or defraud, but rather, that
there is mere disagreement about the proper
classification of the worker. In concluding that the
underlying proceeding initiated under N.J.S.A. 43:2114 was a civil enforcement proceeding quasi-criminal in
nature, the Panel explicitly rejected the statutory
interpretation and classification of New Jersey courts.
The statute itself states that the actions initiated
thereunder are civil, see N.J.S.A. 43:21-14, and New
Jersey courts interpreting the statutory sections

12
regarding proceedings under the UCL have determined
that the UCL generally provides for purely civil, not
quasi-criminal proceedings, Drake, 79 N.J. Super. at
461. A federal court is “bound by the [state court’s]
interpretation of state law.” Johnson v. United States,
559 U.S. 133, 138 (2010); see New York v. Ferber, 458
U.S. 747, 767 (1982) (reiterating that “the construction
that a state court gives a state statute is not a matter
subject to [federal court] review”); Exxon Corp. v. Wis.
Dep’t of Revenue, 447 U.S. 207, 226 n.9 (1980) (stating
that the final arbiter of Wisconsin state law is the
Wisconsin Supreme Court); Wainwright v. Stone, 414
U.S. 21, 22 (1973) (holding that any judgment of
federal courts as to the interpretation of a state statute
“must be made in the light of prior state constructions
of the statute.”); Minnesota ex rel. Pearson v. Prob. Ct.,
309 U.S. 270, 273 (1940) (federal courts “must take the
statute as though it read precisely as the highest court
of the State has interpreted it.”).
New Jersey has long recognized that “under
N.J.S.A. 43:21-14, where an employer is deficient in
paying unemployment insurance contributions, the
State may (1) charge interest on the deficiency,
(2) make a demand for payment and (3) obtain a
judgment upon issuing a certificate.” Witrak, 194 N.J.
Super. at 530. These are “civil remedies” for the “mere
failure to pay the appropriate contributions.” Id. at 531.
These are not “quasi-criminal sanctions fixed in
N.J.S.A. 43:21-16” for “offenses” of knowingly false
representations and willful violations of the statute. Id.
Such sanctions would require the NJDOL to show
“willfulness or intent to evade.” Id.

13
Thus, the administrative proceeding below is a
purely civil action. Sprint requires that the actual
proceeding in the case be quasi-criminal. Indeed,
abstention is only appropriate when the state
proceeding “at issue” bears the hallmarks of a quasicriminal action. ACRA Turf Club, LLC, 748 F.3d at 138
(citing Sprint, 571 U.S. at 73).
2. N.J.S.A. 43:21-16(e) is a civil statute
that has been held to afford quasicriminal remedies.
One way in which courts determine whether a civil
action is a civil enforcement proceeding quasi-criminal
in nature is to look to comparator criminal actions
under which the State could have vindicated its
interests. See Trainor, 431 U.S. at 444; Huffman, 420
U.S. at 604. The Panel erred in holding that N.J.S.A.
43:21-16(e) affords a parallel criminal action to the
pending administrative proceeding below. As set forth
in greater detail herein, N.J.S.A. 43:21-16(e) is a quasicriminal enforcement provision, not a criminal statute,
because the state courts of New Jersey have
unequivocally so held.
N.J.S.A. 43:21-16 provides multiple different types
of penalties that the NJDOL may bring against
employers and employees for the failure to truthfully
provide information required by the UCL. N.J.S.A.
43:21-16(e), specifically, has been examined and
categorized as providing the Commissioner with the
ability to initiate quasi-criminal proceedings. See
Matter of Corbo, 117 B.R. at 111 (recognizing actions
under subsection (e) as quasi-criminal); Witrak, 194
N.J. Super. at 529–32 (same). N.J.S.A. 43:21-16(e)

14
provides only “quasi-criminal sanctions for failure to
remit employer contributions.” Witrak, 194 N.J. Super.
at 531. N.J.S.A. 43:21-16(e) cannot therefore serve as
a criminal analog by which to apply Younger abstention
without drastically broadening the scope of the
extraordinary remedy provided by the Younger
abstention doctrine.
Where this Court in Sprint unanimously sought to
cabin the applicability of Younger, the Third Circuit’s
precedential analysis all but ensures that a State will
prevail on abstention grounds if it simply can point to
a quasi-criminal provision in a general statutory
scheme, steps removed from any criminal action. The
Panel’s finding that the NJDOL administrative action
is a civil enforcement proceeding quasi-criminal in
nature is contrary to Sprint’s requirement that
Younger only applies to civil actions that are quasicriminal. Taken to its conclusion, the Panel’s analysis
would extend Younger to “virtually all parallel state
and federal proceedings” where a party can “identify a
plausibly important state interest.” Sprint, 571 U.S. at
81. Permitting federal courts to do otherwise would
eviscerate Sprint and this Court’s Younger
jurisprudence.
B. The Panel Erred in Finding That
NJDOL Audits Are Initiated to Sanction
Employers.
The Panel’s reliance on N.J.S.A. 43:21-16(e) as a
criminal analog, and rejection of the New Jersey state
law classifying the penalties afforded under N.J.S.A.
43:21-14 as civil, also colors its determination that the
audit and assessment under N.J.S.A. 43:21-14 was

15
initiated to “sanction” PDX and its overall conclusion
that the audit and administrative appeal is a “civil
enforcement proceeding” under Younger. Specifically,
the Panel concluded that “[p]enalties are, by their very
nature, retributive: a sanction for wrongful conduct,”
and that “[m]isclassification of workers that results in
the non-payment of state taxes is ‘wrongful conduct.’”
PDX North, Inc. v. Comm’r of N.J. Dep’t of Lab. and
Workforce Dev., 978 F.3d 871, 884 (3d Cir. 2020). The
Panel’s conclusion does not reflect the NJDOL’s larger
responsibilities as a state agency and is therefore
unsupported by law.
The NJDOL initiates audits of employers pursuant
to the requirements of the United States Department
of Labor, which requires that the NJDOL employ a
comprehensive field audit program. See N.J. Dep’t of
Lab. and Workforce Dev., Emp. Handbook, Audit
Process, available at https://www.nj.gov/labor/hand
book/chap1 /chap1sec7AuditProcess.html. The audits
are initiated randomly, as well as in response to
delinquencies and complaints, resulting in audits of
thousands of employers per year. Id. To conclude that
the NJDOL is initiating a quasi-criminal proceeding
against thousands of employers per year, all of which
are now barred from any challenge to the NJDOL in
federal court, merely because the UCL provides for
quasi-criminal proceedings in some circumstances,
would do the very thing that this Court warned
against, rendering abstention the rule rather than the
exception.
Here, the NJDOL audited PDX and calculated
contributions, interest, and penalties, pursuant to

16
N.J.S.A. 43:21-14, that the auditor believes PDX owes.
PDX appealed stating that the classification of its
workforce by the NJDOL is incorrect and, therefore,
the amounts calculated by the NJDOL are not due and
owing. There is nothing quasi-criminal about this
circumstance. New Jersey courts specifically classify
N.J.S.A. 43:21-14 as a set of civil remedies under the
UCL for an employer’s failure to pay the appropriate
contributions. See Witrak, 194 N.J. Super. at 531.2 In
sum, the Panel’s reasoning and application of Younger
render Sprint’s limiting principles a nullity and permit
a court to abstain as long as there is a quasi-criminal
provision within the same statutory scheme at issue in
the pending state proceeding.
II.

The Circuits are Divided Over the Question
Presented.

The decision below creates conflict among the courts
of appeals for the Third Circuit, the Seventh Circuit,
the Eighth Circuit and the Ninth Circuit. Because of
the Panel’s decision, the circuits now disagree as to
whether a purely civil administrative proceeding with
a purported quasi-criminal analog can be the basis for
a federal court to abstain. Moreover, the Panel’s
decision sharply diverges from Sprint and the other
circuits applying Sprint in that the decision below

2

If the NJDOL is initiating a quasi-criminal proceeding against
every employer it audits, due process would dictate that at least a
summary hearing be conducted before quasi-criminal sanctions are
imposed. See State v. Paladino, 203 N.J. Super. 537, 547 (App. Div.
1985) (stating that the “process of instituting restitution implicates
due process rights”); see also N.J.S.A. 43:21-16(e) and (f) (requiring
a court proceeding for the enforcement of quasi-criminal penalties).

17
relies upon Petitioner’s “fear” of a criminal prosecution
or a hypothetical enforcement proceeding not at issue
in this case.
This is a significant conflict among the courts of
appeal because as it stands now, the discretion to
abstain under Younger varies across forums whereby
some courts have greater discretion to decline
jurisdiction than do others. This in turn implicates
important issues of federalism, the states’ role in our
constitutional system of government, and the ability of
a business to seek relief from oppressive and
overbearing government regulation. These issues
warrant this Court’s attention and review. Given the
circuits’ significant disagreement over the limits of
Younger’s application to civil enforcement proceedings,
only this Court can provide uniformity and clear
guidance on this issue nationwide. Unlike the other
circuit courts’ faithful adherence to Sprint, where this
Court unanimously sought to cabin the applicability of
Younger, the Third Circuit’s analysis all but ensures
that a federal court will abstain if there is a quasicriminal provision in a general civil statutory scheme,
even if the State did not pursue the party for a
violation of that quasi-criminal provision in the actual
underlying proceeding.
A. Aside from the Panel’s Decision Below,
No Other Circuits Apply Younger
Abstention to a Purely Civil Proceeding.
The Panel’s decision below creates a circuit split
between the Third Circuit and all other circuits
because no other court applies Younger abstention to a
purely civil proceeding.

18
The Panel’s analysis, which conflicts with this
Court’s precedents and three other circuits cannot
stand. The Panel’s unrestrained view of Younger is an
outlier among the other circuits nationwide, and this
Court should accept certiorari to articulate the proper
analysis for determining whether abstention is
warranted in the case of a civil proceeding that is not
quasi-criminal in nature.
In stark contrast to the Panel’s decision in the Third
Circuit, the Ninth Circuit has held that “the mere fact
that [a civil enforcement] law refers to criminal
statutes does not mean that [the] proceedings are
quasi-criminal” for abstention purposes. Rynearson v.
Ferguson, 903 F.3d 920, 926 (9th Cir. 2018). Following
the Ninth Circuit’s logic, the mere fact that a quasicriminal provision exists within the same statutory
scheme as the civil provision underlying the proceeding
at issue does not automatically make abstention
proper. As this Court noted in Sprint, “[a]bstention is
not in order simply because a pending state-court
proceeding involves the same subject
matter.” Rynearson, 903 F.3d at 926 (quoting
571 U.S. at 72).
In Minnesota Living Assistance, Inc. v. Peterson, the
Eighth Circuit held that the underlying administrative
wage proceeding qualified as a civil proceeding akin to
a criminal prosecution because the alleged Minnesota
Fair Labor Standards Act violations directly provided
for criminal penalties for the same violation that
resulted in an assessment of civil penalties against the
plaintiff. 899 F.3d 548, 553 (8th Cir. 2018). There,
unlike the proceeding below, the state authorities could

19
have charged the plaintiff with a misdemeanor on the
same facts as relied upon for the imposition of civil
penalties, but simply chose not to. See id. (citing
Trainor, 431 U.S. at 444). Here, in N.J.S.A. 43:21-14,
the statute pursuant to which the state administrative
action is proceeding, there is no criminal sanction or
imprisonment option available. Rather, the
Commissioner would have to establish that PDX
intended to evade or defraud the NJDOL under
N.J.S.A. 43:21-16(e) in order to initiate a quasicriminal action in municipal or Superior Court.
Consistent with Sprint and in conflict with the
Panel below, the Seventh Circuit also strictly applies
Younger to quasi-criminal proceedings that share a
parallel criminal statute with criminal penalties. For
example, the Seventh Circuit held that an election
board meeting was “not the type of quasi-criminal
proceeding that would warrant Younger abstention”
after Sprint. Mulholland v. Marion Cnty. Election Bd.,
746 F.3d 811, 816 (7th Cir. 2014). Unlike the Panel
below, the Mulholland Court concluded that Younger
abstention was inappropriate after looking to whether
the Board’s procedures and the applicable election
statute presented any “possibility of [a] criminal
penalty.” Id. at 816–17. Consistent with this Court’s
jurisprudence and other circuits, the Seventh Circuit
applies Younger only to a quasi-criminal proceeding,
which has a parallel criminal statute, not a civil
proceeding with a purportedly parallel quasi-criminal
statute. See id. See also N.J.S.A. 43:21-14; N.J.S.A.
43:23-16(e). Given the conflicting analytical approaches
among the circuits, this Court should resolve the circuit
conflict.

20
B. The Panel is the Only Court to Abstain
Under Younger By Looking to a
Hypothetical Criminal Proceeding Not
At Issue In the Case.
The Panel also created a conflict among the circuits
when it concluded that a speculative fear of future
criminal prosecution is enough under Sprint to warrant
a district court to abstain under Younger. The Panel
reasoned that “the question is not whether the current
action is criminal or whether criminal charges are
warranted,” but whether Petitioners “acknowledge[d]
the risk of New Jersey criminally charging them in
their pleadings.” PDX North, Inc., 978 F.3d at 884.
There is no precedent to support the Panel’s reasoning.
The Panel’s conclusion that the NJDOL action qualified
as a civil enforcement proceeding based on a fear that
the NJDOL could in future seek criminal penalties or
sanctions conflicts with recent circuit precedent and
Sprint.
To be sure, the Commissioner’s state administrative
action would not have been sufficient to support
abstention in either the Seventh Circuit, the Eighth
Circuit or the Ninth Circuit. Sprint requires a court to
examine the “[underlying] state proceeding” at issue in
the case. See Bristol-Myers Squibb Co. v. Connors, 979
F.3d 732, 738 (9th Cir. 2020) (applying Sprint);
Rynearson, 903 F.3d at 925–26 (analyzing the
“protection order proceedings” specific to “[the
appellant’s] case” and concluding that the “proceedings
do not reflect any of the characteristics described in
Sprint”); Peterson, 899 F.3d at 553 (assessing whether
the “underlying proceeding resembles” one of the cases

21
in which this Court affirmed abstention); Mulholland,
746 F.3d at 816–17 (examining the “hearing in this
case” under Sprint). The Panel’s finding of abstention
based on Petitioner’s “fear” or vague “acknowledgment”
that New Jersey could bring criminal charges at some
future point cannot be reconciled with Sprint, Connors,
Rynearson, Peterson or Mulholland.
For example, in conflict with the Panel’s holding,
the Ninth Circuit in Connors adhered to Sprint and
determined that the question of whether Younger
abstention was appropriate turned on whether the
proceeding below was itself a “civil enforcement
proceeding.” 979 F.3d at 738. Without speculating on
the attorney general’s motives, the Ninth Circuit
affirmed abstention because the “State’s action has
been brought under a statute that punishes those who
engage in deceptive acts in commerce, and the State
seeks civil penalties and punitive damages to sanction
the companies for their allegedly deceptive labeling
practices.” Id. The Ninth Circuit’s focus on whether the
State’s specific action “fits comfortably within the class
of cases described in Sprint” directly conflicts with the
Panel’s insistence that “the question is not whether the
current action is criminal or whether criminal charges
are warranted,” but whether Petitioners
“acknowledge[d] the risk of New Jersey criminally
charging them in their pleadings.” PDX North, Inc.,
978 F.3d at 884. Petitioner’s acknowledgement that the
state could hypothetically initiate a criminal action has
no place in this Court’s precedential analysis. See
Sprint, 571 U.S. at 78–80.

22
Like the Ninth Circuit and in conflict with the
Panel below, the Eighth Circuit follows Sprint by
looking to whether “the underlying proceeding is
merely an administrative wage claim with no criminal
analog,” or a quasi-criminal proceeding with a parallel
criminal statute that warrants abstention. Peterson,
899 F.3d at 553. As Sprint requires, the Eighth Circuit
refused to consider a hypothetical proceeding and
looked at whether the underlying proceeding and the
State’s allegations under the relevant provision
“provide[] for criminal penalties in addition to the civil
penalties pursued [by the State.]” Id.
Sprint does not permit a federal court to abstain if
it can identify a quasi-criminal remedy within the same
statutory scheme as the civil provision underlying a
proceeding. Sprint requires that the actual proceeding
in the case be a civil enforcement proceeding that is
quasi-criminal in nature. See Connors, 979 F.3d at 738;
Rynearson, 903 F.3d at 925–26; Peterson, 899 F.3d at
553; Mulholland, 746 F.3d at 816–17. In its analysis,
the Sprint Court referred to the “pending” proceeding
below fifteen times. See, e.g., Sprint, 571 U.S. at 73
(Younger applies to a “pending state criminal
proceeding”); id. at 80–81 (“Nothing here suggests that
the IUB proceeding was ‘more akin to a criminal
prosecution than are most civil cases.’”) (quoting
Huffman, 420 U.S. at 604).
In contrast to the Panel, the Seventh, Eighth, and
Ninth Circuits properly look to the nature of the actual
underlying proceeding, not a hypothetical proceeding
that the State never initiated, and consider whether
there is a criminal analog to the civil provision the

23
State seeks to enforce in the underlying the proceeding.
This Court should resolve the circuit conflict and clarify
that the actual pending proceeding must be quasicriminal in nature, as stated in Sprint, and neither a
civil action with a quasi-criminal analog nor a
hypothetical criminal action warrants abstention.
III.

The Panel’s Opinion and Analysis Will
Significantly Hinder a Business’s Ability to
Challenge Unconstitutional Regulations.

For four years, Petitioner aggressively litigated this
action seeking resolution of a federal question of first
impression concerning the preemption of New Jersey
law, among other issues.
By expanding Younger far beyond what this Court
ever contemplated, the Panel’s opinion and analysis
deprived Petitioner of the opportunity to resolve its
constitutional claims in the district court.
As discussed above, employers in the Third Circuit
are particularly vulnerable to a State initiating a
frivolous state proceeding to bar a business from
raising meritorious claims in its defense. Under the
Panel’s analysis, a business’s claims of preemption and
other meritorious defenses, in the face of an
unmitigated state court proceeding, will be futile
because the State can presumptively seek federal
abstention and obviate any constitutional challenge a
business may raise. If this Court permits the Third
Circuit’s quasi-criminal analog analysis to
predominate, and possibly spread to other circuits,
innocent employers will be left with no viable way to
raise constitutional challenges in federal court to

24
actions taken against them by state government
officials.
IV.

This Case Provides an Ideal Vehicle to Rein
in the Third Circuit’s Expansive QuasiCriminal Analog Analysis and Reaffirm
Younger’s Limited Application.

This case is an ideal vehicle to address the conflict
among the circuits and important questions of
abstention law presented. Four factors highlight this
conclusion.
First, the record cleanly frames the questions
presented. This case asks the Court to make a
determination as a matter of law regarding the
appropriate scope of Sprint in light of the conflicting
statutory interpretations of the Panel and the New
Jersey state court. Although a robust factual record
was developed before the trial court below, this Court
need not delve into factual discrepancies to resolve the
unsettled questions of law before it.
Second, although the Panel’s decision created a
circuit split with the Seventh, Eighth, and Ninth
Circuits, the Third Circuit’s quasi-criminal analog
analysis is the most tenuous extension of Younger and
Sprint to date. As discussed above, employers are
particularly vulnerable in the Third Circuit. Their
claims of preemption and other meritorious defenses in
the face of unbounded government action will be futile
because a state entity can presumptively seek federal
abstention and obviate any challenge a business may
put forth. If this Court permits the Third Circuit’s
quasi-criminal analog analysis to predominate, and

25
possibly spread to other circuits, innocent employers
will be left with no viable way to challenge allegations
made against them.
Third, this case presents the ideal vehicle to clarify
and reinvigorate this Court’s unanimous holding in
Sprint that sought to rein in Younger’s applicability
and provide further guidance to the circuits as to the
appropriate breadth of the definition of civil
enforcement proceeding.
Fourth, the abstention issues presented to the Court
are not ones that will benefit from further percolation
in the circuit courts. This Court’s consistent command
that Younger abstention is the exception, not the rule,
requires that the Court affirm the principle that
federal courts have a “virtually unflagging” obligation
to hear and decide cases within their jurisdiction.
CONCLUSION
The petition for a writ of certiorari should be
granted.

26
Respectfully submitted,
JACK L. KOLPEN, ESQ.
IAN D. MEKLINSKY, ESQ.
CORINNE MCCANN TRAINOR, ESQ.
Counsel of Record
ALLISON L. HOLLOWS, ESQ.
MICHAEL W. SABO, ESQ.
FOX ROTHSCHILD LLP
Princeton Pike Corporate Center
997 Lenox Drive
Lawrenceville, NJ 08648
Tel: (609) 896.3600
Fax: (609) 896.1469
ctrainor@foxrothschild.com

Counsel for Petitioner

